Executive Report



Return to the USDOJ/OIG Home Page



Office of Justice Programs
Drug Court Grants Program
Planning and Implementation Grants
to the Belmont County Juvenile Court 
St. Clairsville, Ohio
GR-50-00-017
March 24, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Drug Court Planning and Implementation Grants to the Belmont County Juvenile Court in St. Clairsville, Ohio.  The planning grant was awarded in the amount of $19,000 for the period April 1, 1997 through November 30, 1997, which was later extended to January 31, 2000.  The implementation grant was awarded in the amount of $187,247 for the period of June 1, 1998 through May 31, 2000.  The Department of Justice, Office of Justice Programs, Drug Court Grants Office issued both of the awards.  The intent of the grants was to establish a juvenile drug court for male and female, non-violent, drug-abusing offenders.  

	In general, our audit revealed that the grantee complied with the grant requirements.  However, we identified certain weaknesses in financial and administrative controls.  Specifically:
 
Controls over personnel expenditures and the tracking of local matching funds were not adequate.
 
	The grantee was not able to support $20,575 of the $51,590 in local match charges to the implementation grant.  In addition, the grantee administratively reduced the percentage of time to be charged as local match by one of the locally-funded positions.  As a result, the grantee will need to generate $5,496 in local match from another source.

	Several required reports were either not filed, not timely, or not accurate.
The details of our audit are contained in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in Appendix I.